NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JUN 29 2021

FOR THE NINTH CIRCUIT
AUDREY L. KIMNER,

.MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 21-15487

Plaintiff-Appellant,

D.C. No. 5:20-cv-07563-EJD

v.
MEMORANDUM*
BERKELEY COUNTY, SC,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Submitted June 21, 2021"
Before:

SILVERMAN, WATFORD, and BENNETT, Circuit Judges.

Audrey L. Kimner appeals pro se from the district court's judgment
dismissing her action alleging federal and state law claims arising from South
Carolina state court proceedings. We have jurisdiction under 28 U.S.C. ยง 1291.
We review de novo a dismissal for lack of personal jurisdiction: CollegeSource,

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2). Kimner's request for a
hearing, set forth in her filing at Docket Entry No. 9, is denied.

Inc. v. AcademyOne, Inc., 653 F.3d 1066, 1073 (9th Cir. 2011). We affirm.
The district court properly dismissed Kimner's action because Kimner failed
to allege facts sufficient to make a prima facie showing that the district court had
personal jurisdiction over defendant Berkeley County. See id. at 1074, 1076-77
(discussing requirements for general and specific personal jurisdiction); see also
Walden v. Fiore, 571 U.S. 277, 291 (2014) ("[I]t is the defendant, not the plaintiff
or third parties, who must create contacts with the forum State.").
The district court did not abuse its discretion by denying Kimner's motion
for recusal because Kimner failed to demonstrate extrajudicial bias or prejudice.
See United States v. Johnson, 610 F.3d 1138, 1147 (9th Cir. 2010) (setting forth
standard of review and objective test to determine whether recusal is required).
We reject as unsupported by the record Kimner's contentions that the district
court was biased against her, engaged in unlawful or unethical behavior, or erred
by failing to hold a hearing.
All pending motions and requests are denied.
AFFIRMED.

2

21-15487

Case 5:20-c

563-EJD Document 32 Filed 03/C

Page 1 of 1

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVSION

7
8

AUDREY L. KIMNER,
Plaintiffs,

9
10
11
12

v.

Case No. 5:20-ev-07563-EJD
JUDGMENT
Re: Dkt. No. 19

BERKELEY COUNTY SOUTH
CAROLINA,
Defendants.

13
14
15
16
17
18
19

On March 4, 2021, the Court granted Defendant Berkeley County's motion to dismiss.
Pursuant to Federal Rule of Civil Procedure 58, the Court hereby ENTERS judgment in favor of
Berkeley County, South Carolina and against Audrey L. Kimner. The Clerk of Court shall close
the file in this matter.
IT IS SO ORDERED.
Dated: March 4, 2021

20
21
22
23
24
25
26
27
28

EDWARD J. DAVILA
United States District Judge

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 1 of 6

1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

AUDREY L. KIMNER,

Case No. 5:20-cv-07563-EJD

Plaintiff,
ORDER GRANTING MOTION TO
DISMISS

v.

Re: Dkt. No. 19

BERKELEY COUNTY SOUTH
CAROLINA,
Defendant.

Before the Court is Defendant Berkeley County, South Carolina's ("Berkeley County")
motion to dismiss a complaint brought by pro se Plaintiff Audrey Kirrmer ("Kimner") for failure to
state a claim under Rule 12(b)(6), lack of personal jurisdiction under Rule 12(b)(2), and improper
venue under Rule 12(b)(3). Def.'s Mot. to Dismiss, Dkt. No. 19 ("Motion"). The Court took the
matter under submission for decision without oral argument pursuant to Civil Local Rule 7-1(b).
For the reasons below, the Court GRANTS Berkeley County's Motion.
I.

Background
Defendant Berkeley County is located in South Carolina and is a political subdivision of

the state of South Carolina. Compl. at 2, Dkt. No. 1; Motion at 3. Ms. Kimner is a citizen of
California residing in Carmel, California. Compl. at 1. Ms. Kimner has filed suit in this Court
demanding $5,000,000 in damages from Berkeley County due to allegations that Berkeley County
was responsible for improperly possessing Ms. Kimner's real property and funds in South
Carolina and for improperly jailing Ms. Kimner. Id. at 4-5. Ms Kimner's allegations against
Berkeley County stem from various orders issued by Berkeley County Family Court in a divorce
Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
1

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 2 of 6

proceeding. Compl. at 4-5, 15, 17-20, 27-31, 56, 59-61; Motion at 5; see also Kimner v. Kimner,
2008-DR-08-02160.
II.

Discussion
A. Failure to State a Claim under Rule 12(b)(6)
In deciding a motion to dismiss under Rule 12(b)(6), courts must accept as true all "well-

pleaded factual allegations" in a complaint. Ashcroft v. lqbal, 556 U.S. 662, 679 (2009). Further,
courts must draw all reasonable inferences in the light most favorable to the non-moving
party. See Daniels-Hall v. Nat'l Educ. Ass 'n, 629 F.3d 992, 998 (9th Cir. 2010). However, "courts
`are not bound to accept as true a legal conclusion couched as a factual allegation.' Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Papasan v. Allain, 478 U.S: 265, 286
(1986)). The complaint must contain "sufficient factual matter, accepted as true, to 'state a claim
to relief that is plausible on its face.' Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 570).
"A claim has facial plausibility when the pleaded factual content allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged." Id. (citing Twombly,
550 U.S. at 556). Although a complaint "does not need detailed factual allegations," the "[f]actual
allegations must be enough to raise a right to relief above the speculative level." Twombly, 550
U.S. at 555. As such, a complaint must (1) "contain sufficient allegations of underlying facts to
give fair notice and to enable the opposing party to defend itself effectively[,]" and (2) "plausibly
suggest an entitlement to relief, such that it is not unfair to require the opposing party to be
subjected to the expense of discovery and continued litigation." Starr v. Baca, 652 F.3d 1202,
1216 (9th Cir. 2011).
In her pleadings, Ms. Kimner describes a series of alleged harms she has suffered,
including the "illegal possession of [her] home" and "jailing [her] illegally." Compl. at 4. Attached
to her complaint, Ms. Kimner provided voluminous documentation and previous court records
from South Carolina state court proceedings. Insofar as Ms. Kimner is seeking to appeal a South
Carolina state court decision that caused her to lose her home and other assets, such claims cannot
Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
2

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 3 of 6

be heard by this Court as federal courts cannot hear appeals from state court judgments. See
Cooper v. Ramos, 704 F.3d 772, 777 (9th Cir. 2012). While recognizing that "[p]ro se pleadings
must be liberally construed, " Williams v. California Dep't of Mental Health, 2008 WL 590503, at
*1 (N.D. Cal. Feb. 29, 2008) (quoting Balistreri v. Pacifica Police Dep't, 901 F.2d 696, 699 (9th
Cir.1990)), other than her apparent dissatisfaction with the South Carolina proceedings, Ms.
Kimner does not provide any further factual background from which the Court can deduce a
specific claim or cause of action. Thus, even liberally construing Ms. Kimner's pleadings, the
Court does not find a plausible claim or cause of action in the set of facts alleged by Ms. Kimner.
This alone warrants dismissal.
B. Lack of Personal Jurisdiction under Rule 12(b)(2)
Rule 12(b)(2) permits a party to raise lack of personal jurisdiction as a defense by
motion. See Fed. R. Civ. P. (12)(b)(2). "Although the defendant is the moving party on
a motion to dismiss [for lack of personal jurisdiction], the plaintiff bears the burden of establishing
that jurisdiction exists." Rio Props., Inc. v. Rio Intl Interlink, 284 F.3d 1007, 1019 (9th Cir.
2002). "[I]n the absence of an evidentiary hearing, the plaintiff need only make 'a prima facie
showing of jurisdictional facts to withstand the motion to dismiss.'" Brayton Purcell LLP v.
Recordon & Recordon, 606 F.3d 1124, 1127 (9th Cir. 2010) (quoting Pebble Beach Co. v. Caddy,
453 F.3d 1151, 1154 (9th Cir. 2006)). Generally, a court may consider the pleadings in addition to
any declarations submitted by the parties when deciding a motion to dismiss for lack of personal
jurisdiction. See Data Disc. Inc. v. Systems Tech. Assocs., Inc., 557 F.2d 1280, 1285 (9th Cir.
1977). The "uncontroverted allegations in [the plaintiffs] complaint must be taken as true, and
conflicts between the facts contained in the parties' affidavits must be resolved in [the plaintiffs]
favor." Rio Props., 284 F.3d at 1019. In other words, "for the purpose of this [prima facie]
demonstration, the court resolves all disputed facts in favor of the plaintiff" Pebble Beach, 453
F.3d at 1154.
When determining the presence "of personal jurisdiction over a nonresident defendant,
Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
3

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 4 of 6

1

[courts] ordinarily examine whether such jurisdiction satisfies the 'requirements of the applicable

2

state long-arm statute' and `comport[s] with federal due process.' Bauman v. DaimlerChrysler

3

Corp., 644 F.3d 909, 919 (9th Cir. 2011) (quoting Chan v. Socy Expeditions, Inc., 39 F.3d 1398,

4

1404-05 (9th Cir. 1994)). "Because California permits the exercise of personal jurisdiction to the

5

full extent permitted by due process, [courts] need only determine whether jurisdiction over [a

6

defendant] comports with due process." Id. (internal quotations omitted); see Cal. Civ. Proc. Code

7

ยง 410.10 ("A court of this state may exercise jurisdiction on any basis not inconsistent with the

8

Constitution of this state or of the United States."). Thus, "[for due process to be satisfied, a

9

defendant, if not present in the forum, must have 'minimum contacts' with the forum state such

10

that the assertion of jurisdiction 'does not offend traditional notions of fair play and substantial

11

justice.' Pebble Beach, 453 F.3d at 1155 (quoting Intl Shoe Co. v. State of Wash., Office of

12

Unemp 't Comp. & Placement, 326 U.S. 310, 316 (1945)).

13

The Ninth Circuit has established three requirements for a district court to exercise specific

14

personal jurisdiction over a nonresident defendant: "(1) the defendant must either 'purposefully

15

direct his activities' toward the forum or 'purposefully avail[ ] himself of the privileges of

16

conducting activities in the forum;' (2) the claim must be one which arises out of or relates to the

17

defendant's forum-related activities; and (3) the exercise of jurisdiction must comport with fair

18

play and substantial justice, i.e. it must be reasonable." Axiom Foods, Inc. v. Acerchem Intl, Inc.,

19

874 F.3d 1064, 1068 (9th Cir. 2017) (quoting Dole Food Co., Inc. v. Watts, 303 F.3d 1104, 1111

20

(9th Cir. 2002)). "The plaintiff bears the burden of satisfying the first two prongs of the

21

test." Id. "If the plaintiff succeeds in satisfying both of the first two prongs, the burden then shifts

22

to the defendant to 'present a compelling case' that the exercise of jurisdiction would not be

23

reasonable." Id. (quoting Burger King, 471 U.S. at 477).

24

Here, because both parties agree that Berkeley County is not domiciled in the Northern

25

District of California, Ms. Kimner must establish specific personal jurisdiction. Motion at 3;

26

Opposition at 2; Dkt. No. 24. Berkeley County asserts that it "has no contacts with the Northern

27
28

Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
4

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 5 of 6

1

District of California." Motion, p. 3. Ms. Kimner does not dispute Berkeley County's assertion,

2

nor does she plead any facts demonstrating any such contacts by Berkeley County. As such, in the

3

absence of any minimum contacts by Berkeley County with California, personal jurisdiction over

4

Berkeley County by this Court cannot be exercised. This also warrants dismissal.

5

C. Improper Venue under Rule 12(b)(3)

6

Under Rule 12(b)(3), a defendant may move to dismiss a suit for improper venue. Fed. R.

7

Civ. P. 12(b)(3). Under the federal statute governing venue in civil actions, "[a] civil action may

8

be brought in: (1) a judicial district in which any defendant resides, if all defendants are residents

9

of the State in which the district is located; (2) a judicial district in which a substantial part of the

10

events or omissions giving rise to the claim occurred, or a substantial part of property that is the

11

subject of the action is situated; or (3) if there is no district in which an action may otherwise be

12

brought as provided in this section, any judicial district in which any defendant is subject to the

13

court's personal jurisdiction with respect to such action." 28 U.S.C. ยง 1391.
Here, Plaintiff has not alleged any facts establishing that this Court is the proper venue for

14
15

this action. First, as previously mentioned, Berkeley County resides in South Carolina, not in the

16

Northern District of California. See Compl. at 2. Second, from the facts in the record, it appears

17

that most, if not all, of the "events or omissions giving rise to" Ms. Kimner's claim occurred

18

exclusively in South Carolina. 28 U.S.C. ยง 1391. Finally, as discussed above, Berkeley County is

19

not subject to personal jurisdiction in this judicial district. As such, venue with this Court is

20

improper.

21

III

22

Conclusion
For the reasons stated above, the Court GRANTS Berkeley County's motion to dismiss.

23

Ms. Kimner has previously amended her complaint, received notice from this Court to cure many

24

of the same deficiencies that remain present here, and therefore the Court finds that further

25

amendment would be futile. The Court DISMISSES Ms. Kimner's case against Berkeley County

26

WITH PREJUDICE.

27
28

Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
5

Case 5:20-cv-07563-EJD Document 31 Filed 03/04/21 Page 6 of 6

Also pending before the Court are Ms. Kimner's Motion for Default Judgment (Dkt. No.
24) and Motion for Clarification (Dkt. No. 27). Because the Court has found it appropriate to
dismiss Ms. Kimner's claims with prejudice, these pending motions are hereby TERMINATED
AS MOOT, and all other dates and deadlines are hereby VACATED.
IT IS SO ORDERED.
Dated: March 4, 2021
EDWARD J. DAVILA
United States District Judge

Case No.: 5:20-cv-07563-EJD
ORDER GRANTING MOTION TO DISMISS
6

Additional material
from this filing is
available in the
Clerk's. Office.

